                         Department of the Interior
                         Office of Inspector General




           AUDIT REPORT




              U.S. Fish and Wildlife Service
            Wildlife and Sport Fish Restoration
             Program Grants Awarded to the
                       State of Idaho,
              Department of Fish and Game,
         From July 1, 2005, Through June 30, 2007




Report No. R-GR-FWS-0006-2008        January 2009
                United States Department of the Interior
                              OFFICE OF INSPECTOR GENERAL
                              12030 Sunrise Valley Drive, Suite 230
                                      Reston, VA 20191
                                                                                    January 26, 2009

                                       AUDIT REPORT
Memorandum

To:        Director
           U.S. Fish and Wildlife Service

From:      Suzanna I. Park
           Director of External Audits

Subject:   Audit on U.S. Fish and Wildlife Service Wildlife and Sport Fish Restoration Program
           Grants Awarded to the State of Idaho, Department of Fish and Game, From July 1,
           2005, Through June 30, 2007 (No. R-GR-FWS-0006-2008)

        This report presents the results of our audit of costs incurred by the State of Idaho (State),
Department of Fish and Game (Department), under grants awarded by the U.S. Fish and Wildlife
Service (FWS). FWS provided the grants to the State under the Wildlife and Sport Fish
Restoration Program (the Program). The audit included claims totaling approximately $26.3
million on 33 grants that were open during State fiscal years (SFYs) ended June 30 of 2006 and
2007 (see Appendix 1). The audit also covered Department compliance with applicable laws,
regulations, and FWS guidelines, including those related to the collection and use of hunting and
fishing license revenues and the reporting of program income.

       We found that the Department complied, in general, with applicable grant accounting and
regulatory requirements. However, we questioned costs totaling $437,073 and found the
Department had unreported program income, inadequate controls over real property, and
inadequate equipment management. We also found that the count of hunting and fishing licenses
reported to FWS as sold in the State may have contained duplicate license holders.

        We provided a draft report to FWS for a response. We summarized Department and
FWS Region 1 responses after each recommendation, as well as our comments on the responses.
We list the status of each recommendation in Appendix 3.

       Please respond in writing to the findings and recommendations included in this report by
April 27, 2009. Your response should include information on actions taken or planned, targeted
completion dates, and titles of officials responsible for implementation.

       If you have any questions regarding this report, please contact the audit team leader,
Mr. Jeffrey P. Wilson, or me at 703–487–5345.

cc:   Regional Director, Region 1, U.S. Fish and Wildlife Service
                                               Introduction
Background

The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport Fish Restoration
Act (Acts) 1 established the Wildlife and Sport Fish Restoration Program. Under the Program,
FWS provides grants to States to restore, conserve, manage, and enhance their sport fish and
wildlife resources. The Acts and federal regulations contain provisions and principles on eligible
costs and allow FWS to reimburse States up to 75 percent of the eligible costs incurred under the
grants. The Acts also require that hunting and fishing license revenues be used only for the
administration of the State’s fish and game agency. Finally, federal regulations and FWS
guidance require States to account for any income they earn using grant funds.

Objectives

Our audit objectives were to determine if the Department:

      •    claimed the costs incurred under the Program grants in accordance with the Acts and
           related regulations, FWS guidelines, and the grant agreements;

      •    used State hunting and fishing license revenues solely for fish and wildlife program
           activities; and

      •    reported and used program income in accordance with federal regulations.

Scope

Audit work included claims totaling approximately $26.3 million on the 33 grants that were
open during SFYs ended June 30, 2006 and 2007 (see Appendix 1). We report only on those
conditions that existed during this audit period. We performed our audit at Department
Headquarters offices in Boise, ID, and visited three regional offices, four wildlife management
areas, one hatchery, one fisheries office, two boat access sites, and one fish access site (see
Appendix 2). We performed this audit to supplement, not replace, the audits required by the
Single Audit Act Amendment of 1996 and by Office of Management and Budget Circular
A-133.

Methodology

We performed our audit in accordance with the “Government Auditing Standards” issued by the
Comptroller General of the United States. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We tested records and conducted auditing procedures

1
    16 U.S.C. §§ 669 and 777, as amended, respectively.

                                                          2
as necessary under the circumstances. We believe that the evidence obtained from our tests and
procedures provides a reasonable basis for our findings and conclusions based on our audit
objectives.

Our tests and procedures included:

   •   examining the evidence that supports selected expenditures charged to the grants by the
       Department;

   •   reviewing transactions related to purchases, direct costs, drawdowns of reimbursements,
       in-kind contributions, and program income;

   •   interviewing Department employees to ensure that personnel costs charged to the grants
       were supportable;

   •   conducting site visits to inspect equipment and other property;

   •   determining whether the Department used hunting and fishing license revenues solely for
       administration of the Department; and

   •   determining whether the State passed required legislation assenting to the provisions of
       the Acts.

We also identified the internal controls over transactions recorded in the labor and license fee
accounting systems and tested their operation and reliability. Based on the results of initial
assessments, we assigned a level of risk to these systems and selected a judgmental sample of
transactions recorded in these systems for testing. We did not project the results of the tests to
the total population of recorded transactions or evaluate the economy, efficiency, or effectiveness
of Department operations.

Prior Audit Coverage
On September 30, 2005 we issued “U.S. Fish and Wildlife Service Federal Assistance Grants
Administered by the State of Idaho, Department of Fish and Game, from July 1, 2001, through
June 30, 2003” (R-GR-FWS-0008-2004). We followed up on all recommendations in the report
and found that the Department of the Interior, Office of Assistant Secretary for Policy,
Management and Budget (PMB) classifies all 15 recommendations as unimplemented. While
we did not find any conditions that warrant repeating these recommendations, FWS is awaiting
documentation from the State. PMB cannot reclassify the recommendations as implemented
until they receive adequate documentation from FWS (and the State). The recommendations
relate to questioned costs from unsupported advances, matching costs, out of period costs,
awards to volunteers, and an incorrect and overstated federal share percentage applied to two
Program grants, as well as unreported program income, improper drawdown procedures, and
improper allocation of leave.

We reviewed Idaho’s Comprehensive Annual Financial Reports and Single Audit Reports for
SFYs 2006 and 2007. None of these reports contained any findings that would directly impact

                                              3
the Department’s Wildlife and Sport Fish Restoration Program grants or programs under the
grants. In addition, the Department’s Wildlife and Sport Fish Restoration Program was not
selected for compliance testing in either of the Single Audits.




                                            4
                                   Results of Audit
Audit Summary
We found that the Department complied, in general, with applicable grant agreement provisions
and requirements of the Acts, regulations, and FWS guidance. However, we identified several
conditions that resulted in the findings listed below, including questioned costs totaling
$437,073. We discuss the findings in more detail in the Findings and Recommendations Section.

       Questioned Costs. We questioned costs totaling $437,073 for unallowable, out-of-
       period, or unsupported costs and costs that were not matched with eligible expenditures
       paid for with non-federal dollars.

       Duplicate Hunting and Fishing Licenses Counted. The hunting and fishing license
       holders reported by the Department for the license year ended December 31, 2006, could
       be overstated because the fishing and hunting license certification may have counted
       certain license holders more than once.

       Unreported Program Income. Morrison Knudsen Nature Center staff charged the
       Aquatic Education Program Grants (Grants F-87-AE-8 and F-87-AE-9) for time spent
       preparing for and giving the general habitat tours. The Department therefore should
       have, but did not, report income received from these tours as program income.

       Inadequate Control of Real Property. Information in the Department’s database on
       total acreage acquired with Program funds conflicted with the FWS land records.

       Inadequate Equipment Management. We found that 41 percent, or nearly half, of the
       items selected for sampling (19 equipment items valued at $163,537) were not being
       maintained at the physical location assigned in the Fixed Asset System. Four items in our
       sample were not included on the Department’s inventory listing.

Findings and Recommendations
A.     Questioned Costs — $437,073

       1. Unallowable, Out of Period, and Unsupported Grant Costs

          Questioned Grant Costs — $95,631. To be eligible for reimbursement under the
          Program, grant funding cannot be used for prohibited purchases or purposes, must be
          adequately supported, and must be incurred during the grant period. To test the
          eligibility of the Department’s expenditures, we reviewed a sample of 100 grant-
          related transactions, worth $639,634, that occurred in SFYs 2006 and 2007. We
          found 8 transactions worth $27,819 were for unallowable costs; 8 transactions worth
          $45,079 were unsupported; and 9 transactions worth $54,611 were incurred outside of
          the grant period. For example, expenses charged to the Fisheries Management
          Program grant include $10,000 for stocking fish, which the grant specifically

                                             5
prohibits. Expenditures charged to the Boating Access grant include picnic tables
charged as field supplies and a contribution to a county parks department for
“improvements” with no documentation of what was accomplished.

We questioned $95,631 (federal share) in costs that the Department charged to the
grants because they were not grant-related ($20,864), were incurred outside the grant
period ($40,958), or were unsupported ($33,809). The Department was also
reimbursed more than it should have been for conducting General Habitat Tours and
operating costs for the Center.

In addition, the Department inappropriately charged grants for employee time spent
on the construction of a regional office conference room table that was not used for
grant-related purposes. The employee charged 69 hours to Fishing Access Program
Grant F-76-D-23 in one pay period, and another 80 hours were charged to Motorboat
Access Grant F-77-B-22 in the following pay period for the construction of the table.

Unsupported Costs for the Morrison Knudsen Nature Center — $79,642. We
also identified charges to grants that were not supported by an allocation plan. First,
the Department inappropriately charged to Aquatic Education Program Grants
F-87-AE-8 and F-87-AE-9 all personnel costs for General Habitat Tours provided by
the Morrison Knudsen Nature Center (the Center) and the majority of operating costs
for the Center.

   •   The wildlife tours, as described on the Department’s website, include general
       wildlife-, habitat-, and conservation-related topics that are not related to
       aquatic education. The Department should have only charged that portion of
       costs related to aquatic education.

   •   While the mission of the Center, as defined on the Department website, does
       not include language specifically related to aquatic education, in SFY 2006,
       the Department charged 100 percent ($6,802) of the Center’s electric costs, 98
       percent ($2,814) of its advertising costs, and 86 percent ($8,728) of office
       supplies to the Program grant. In SFY 2007, 100 percent ($9,875) of the
       Center’s cell phone, electric and gas charges; 94 percent ($4,500) of the
       building’s alarm system; and 100 percent ($4,929) of its computer costs were
       charged to the Program grant. In sum, in SFYs 2006 and 2007, the
       Department charged $47,570 (80 percent) and $58,618 (62 percent),
       respectively, of Center operating costs to the grants. This represents a total of
       $79,642 (Federal Share) for both years combined.

Ineligible and unsupported charges to the grants occurred because the Department
does not have: (1) procedures to ensure that expenditures are allowable under the
grant agreement, (2) a method of equitably allocating costs that serve multiple
purposes, (3) a process for identifying and eliminating expenditures which were
obligated outside the grant period, or (4) a process to ensure it maintains sufficient
documentation to support expenditures.



                                    6
The Code of Federal Regulations (50 C.F.R. § 80.15) specifies that to be allowable,
costs must be reasonable and necessary to accomplish approved project purposes.
These regulations also require grantees to maintain support for the application of
funds in the form of source documents or other records. Furthermore, the regulations
require a grantee—when it uses grant funds to support activities or facilities that may
provide benefit to both grant-related purposes and purposes unrelated to the grant—to
allocate costs equitably among the various purposes based on the relative uses or
benefits provided. Additionally, 43 C.F.R. § 12.63(a) requires grantees to charge
only costs obligated during the grant period.

Recommendations

We recommend that FWS require that the Department:

1.   resolve the $95,631 of questioned costs;

2.   determine what portion of the personnel costs for General Habitat Tours should
     have been charged to Program grants and resolve the unallowable portion of
     these charges;

3.   resolve the $79,642 of unsupported operating costs for the Center charged to
     Program grants or determine what portion should have been allocated to the
     grants and resolve the costs for any portion inappropriately charged to FWS;

4.   determine the dollar amount of unallowable personnel charges to Program grants
     for construction of a conference room table and resolve the questioned costs with
     FWS; and

5.   implement procedures for: (1) ensuring that expenditures are necessary in
     accomplishing approved project purposes, (2) developing an appropriate method
     to allocate portions of expenditures related to multiple purposes, (3) identifying
     and eliminating grant charges that are outside the grant period, and (4)
     maintaining sufficient supporting documentation.

Department Response

The Department responded that it is in the process of reviewing the questioned costs
and will work with FWS to resolve any outstanding issues.

FWS Response

FWS Regional officials concurred with the recommendations and stated that they
would work with the Department in developing a corrective action plan to resolve the
recommendations.




                                   7
   OIG Comments

   While FWS regional management concurred with the recommendations, additional
   information is needed in the corrective action plan, including:

          •    the specific action(s) taken or planned to address the recommendations;

          •    targeted completion dates;

          •    titles of officials responsible for implementing the actions taken or
               planned; and

          •    verification that FWS headquarters officials reviewed and approved of
               actions taken or planned by the Department.

2. Ineligible Aquatic and Hunter Education Matching Costs — $261,800

   Grantees must pay for at least 25 percent of grant costs with non-federal funds. This
   amount is referred to as the “State share” or “State matching share” of grant costs.
   The Department must incur both the federal share and matching State share of grant
   costs before requesting reimbursement for the federal share of those costs. We
   determined that $349,066 of $435,796 in matching costs that the Department claimed
   and we reviewed are unallowable.

   The Department’s internal record keeping system allows it to accumulate and track
   costs associated with individual Program grants through unique project cost
   accounting codes (PCAs). However, for the aquatic education grants and one hunter
   education grant, the Department did not follow this procedure because it used costs
   charged to PCAs not associated with Program grants for its match. There may be
   cases where expenses that are not charged to grant-related PCAs in the accounting
   system are grant-related. However, the Department had no controls to verify whether
   the expenditures charged to non-grant-related PCAs were allowable. The Department
   is therefore at increased risk of using ineligible costs in its claimed matching share.
   We summarize the ineligible matching costs by grant below.


                                 Required State         Unallowable
              Grant Number       Match Reviewed            Costs
              F-87-AE-8              $154,102            $115,554
              F-87-AE-9              $154,102            $113,812
              W-159-HS-35            $127,592            $119,700
              Totals                 $435,796             $349,066

   Federal regulations contain multiple requirements, as outlined in the table below,
   which the Department did not follow in claiming its matching share of costs.



                                       8
  C.F.R. Reference                               Requirement

                       Appendix A, Section C, defines allowable costs as those that are
                       necessary and reasonable, allocable and authorized, and
 2 C.F.R. § 225        adequately documented. Appendix B.8.h.4 and 5 requires
 (OMB Circular         grantees to support the distribution of the salaries or wages of
 A-87)                 employees who work on multiple activities by documentation,
                       such as personnel activity reports, which reflects after-the-fact
                       distribution of the activity of each employee.
                       Provides that an acceptable matching or cost sharing requirement
 43 C.F.R. §           may be satisfied either by allowable costs incurred by the grantee
 12.64(a)(1) and (2)   under the assistance agreement or the value of third party in-kind
                       contributions.
                       Qualifications and exceptions - (I) Costs borne by other Federal
 43 C.F.R. §           grant agreements. Except as provided by Federal statute, a cost
 12.64(b)              sharing or matching requirement may not be met by costs borne
                       by another Federal grant.

The Department claimed $349,066 in ineligible costs as its State matching share of
costs, and was therefore reimbursed $261,800 more than it should have been.

Recommendations

We recommend that FWS ensure that the Department:

1. resolve the $261,800 of questioned costs that were paid to the Department and

2. implement procedures for ensuring that expenditures are allowable and necessary
   in accomplishing approved project purposes.

Department Response

The Department contends that the State matching costs were grant-related and will
provide documentation to FWS for review and support.

FWS Response

FWS regional officials acknowledge the recommendations and stated that they would
work with the Department in developing a corrective action plan.

OIG Comments

While we agree that some of these expenditures may be valid grant costs, it is the
responsibility of the Department to substantiate its claim by providing the supporting
documentation for the transactions in question.



                                       9
        While FWS regional management acknowledges the recommendations, additional
        information is needed in the corrective action plan, including:

            •   the specific action(s) taken or planned to address the recommendations;

            •   targeted completion dates;

            •   titles of officials responsible for the specific actions taken or planned; and

            •   verification that FWS headquarters officials reviewed and approved of actions
                taken or planned by the Department.

B.   Duplicate Hunting and Fishing Licenses Counted

     The Idaho Department of Fish and Game is responsible for certifying and reporting to
     FWS the number of paid hunting and fishing license holders in the State each year. To
     ensure the Department did not count more than once those individuals who purchase
     multiple hunting and fishing licenses, the Department used customer social security
     numbers to identify and eliminate duplicate license holders. However, the Department
     allowed the use of generic numbers for licenses issued to individuals without social
     security numbers, including youths and non-U.S. citizens. The Department does not
     review these license counts to identify and eliminate possible duplicates for its annual
     hunting and fishing license certification.

     Federal regulations (50 C.F.R. § 80.10(a) and (b)) require States to provide information
     concerning the number of persons holding paid hunting and/or fishing licenses in the
     State in the preceding year to FWS. The regulations also require that the information be
     certified as accurate by the director of the State fish and wildlife agency. In addition,
     Section 80.10 (c)(5) prohibits an individual holding more than one license to hunt or fish
     to be counted more than once as a hunting or fishing license holder.

     As a result, the 670,206 paid hunting and fishing license holders reported by the
     Department for the license year ended December 31, 2006, could be overstated because
     the fishing and hunting license certification may contain duplicate counts. For example,
     the Department included in the certification 12,600 licenses with the generic numbers.
     Because the State receives its annual sport fish and wildlife apportionment of grant funds
     based, in part, on the number of license holders, we believe that accurate counts are
     necessary to assure that each State receives the appropriate share of funds.

     Recommendation

     We recommend that FWS require the Department to include steps in their analysis of
     duplicate licenses to identify and eliminate duplicate licenses held by individuals
     assigned generic numbers.




                                             10
     Department Response

     The Department stated that it would work with FWS to implement a more extensive
     check for duplicate licenses.

     FWS Response

     FWS Regional officials concurred with the recommendation and stated that they would
     work with the Department in developing a corrective action plan to resolve the
     recommendation.

     OIG Comments

     While FWS regional management concurred with the recommendation, additional
     information is needed in the corrective action plan, including:

        •   the specific action(s) taken or planned to address the recommendation;

        •   targeted completion dates;

        •   titles of officials responsible for implementing the actions taken or planned; and

        •   verification that FWS headquarters officials reviewed and approved of actions
            taken or planned by the Department.

C.   Unreported Program Income

     FWS and federal regulations permit grantees to earn income from activities supported by
     grant funds, but require that they account for such “program income” in an agreed-upon
     manner. During SFYs 2006 and 2007, the Department earned revenue from fees charged
     for general habitat tours given by personnel from the Department’s Morrison Knudsen
     Nature Center (the Center). Center staff charged to the Aquatic Education Program
     Grants (Grants F-87-AE-8 and F-87-AE-9) time spent preparing for and giving the
     general habitat tours. These grants directly supported the activities that earned the
     income. Accordingly, the revenue generated from tour fees should have been treated as
     program income, but were not. Department Administration Officials were not aware of
     the revenue received from tour fees because the funds were designated as “donations” to
     the Center.

     Federal regulations (43 C.F.R. § 12.65) define program income as gross income received
     by the grantee directly generated by a grant-supported activity, or earned only as a result
     of the grant agreement during the grant period. In addition, the regulations specify that
     program income ordinarily will be deducted from total allowable costs to determine the
     net allowable costs, unless the federal agency authorizes otherwise. Finally, the
     regulations require grantees to use program income that the grantee did not anticipate at
     the time of the award to reduce the federal agency and grantee contributions rather than
     to increase the funds committed to the project. The FWS Manual (522 FW 19,

                                           11
Exhibit 1, Section 1(e)) requires grantees to report income they receive that is directly
generated by a grant-supported activity or earned only as a result of the grant agreement
during the grant period.

The Department earned a combined total of $43,312 in SFYs 2006 and 2007 from tour
fees and donations. We were unable to determine the amount in the account that is
attributable to revenue solely from tour fees (as opposed to the donations, which are not
program income). By understating the program income and related expenses on the
SF-269s for Grants F-87-AE-8 and F-87-AE-9, FWS had no means to ensure the
Department spent the funds appropriately. Ordinarily, program income reduces both the
federal and State share of grant costs (43 C.F.R. § 12.65(g)), so the Department could
have been reimbursed more than it should have been for grant-related expenses because it
failed to report all program income.

Recommendations

We recommend that FWS:

1. direct the Department to determine how much of the $43,312 is from revenue
   generated from tour fees collected in SFYs 2006 and 2007 and recover any amount of
   excess reimbursement made as a result of the unreported program income; and

2. ensure that the Department develops policies and procedures to identify, use, and
   report revenue earned from grant-supported activities as program income in
   accordance with the grant agreement and regulations.

Department Response

The Department asserts that the revenues received from general habitat tours are
donations and not fees and should therefore not be considered program income.

FWS Response

FWS regional officials acknowledge the recommendations and stated that they would
work with the Department in developing a corrective action plan.

OIG Comments

While the Department asserts that fees collected for the general habitat tours are
donations, we found that the Department’s own website identifies these funds as tour fees
and not voluntary donations. Therefore, we believe the finding and recommendations
related to program income from tour fees is valid.

While FWS regional management acknowledges the recommendations, additional
information is needed in the corrective action plan, including:

   •   the specific action(s) taken or planned to address the recommendations;

                                      12
        •   targeted completion dates;

        •   titles of officials responsible for the specific actions taken or planned; and

        •   verification that FWS headquarters officials reviewed and approved of actions
            taken or planned by the Department.

D.   Inadequate Control of Real Property

     To help maintain control over the use of its land, the Department uses a database to
     maintain its land records, including land purchased with Program grant funds. FWS
     Region 1 also maintains a list of lands purchased with Program grant funds. The two sets
     of records should match. However, information in the Department’s database on total
     acreage acquired with Program funds conflicted with information in the FWS list. FWS
     records accounted for nearly 4,000 more acres acquired with Program funds than the
     Department’s database. The Department has not reconciled records in its land database
     with FWS land records to determine their accuracy and completeness.

     Federal regulations (43 C.F.R. § 12.82(a)(1)(i) and (c)(2)) require States to retain
     property records. In addition, in a March 29, 2007 Director’s memorandum, FWS
     require States to maintain a real property management system that includes a
     comprehensive inventory of lands acquire with federal funds.

     The Department’s land records are not adequate to assure effective control over lands
     acquired with Program grant funds. Accordingly, the Department cannot ensure that such
     lands are being used for their intended purposes.

     Recommendation

     We recommend that FWS ensure that the Department reconciles its real property records
     with those of FWS.

     Department Response

     The Department stated that it would work with FWS to reconcile its land database with
     that of the Service.

     FWS Response

     FWS Regional officials concurred with the recommendation and stated that they would
     work with the Department in developing a corrective action plan to resolve the
     recommendation.

     OIG Comments

     While FWS regional management concurred with the recommendation, additional
     information is needed in the corrective action plan, including:

                                            13
        •   the specific action(s) taken or planned to address the recommendation;

        •   targeted completion dates;

        •   titles of officials responsible for implementing the actions taken or planned; and

        •   verification that FWS headquarters officials reviewed and approved of actions
            taken or planned by the Department.

E.   Inadequate Equipment Management

     Federal regulations require each State to have adequate controls—including current and
     complete property records—to ensure it maintains accountability for its equipment (43
     C.F.R. § 12.72(d)(1)). Furthermore, when conducting activities funded under the Acts,
     the State is responsible for assuring all assets serve the purpose for which acquired
     throughout their useful life (50 C.F.R. § 80.18). To test the State’s controls, we reviewed
     its Fixed Asset System (FAS) and selected 46 items of equipment, valued at $363,768, to
     test. During our tests, we found that 41 percent, or nearly half, of the items selected for
     sampling (19 equipment items valued at $163,537) were not being maintained at the
     physical location assigned in the FAS.

     We inspected an additional 35 items that we located in the field to verify that they were
     on the inventory and maintained at the location identified in the FAS (reverse testing).
     We found four items—including a John Deere loader tractor, a trailer, a pressure washer,
     and a boat—that were not included on the Department’s inventory listing. In our reverse
     testing, we identified another five items that were not physically maintained at the
     location assigned in the FAS.

     The State does not have adequate equipment management controls.

        •   First, the FAS uses a job position as a property identifier. This method allows the
            Department to identify the individual accountable for property, although not
            consistently. It also does not allow the Department to identify the physical
            location of the property itself. Better information on the physical movement of
            property could help the Department to ensure it maintains accountability for the
            equipment.

        •   Additionally, while the Department requires individuals accountable for
            equipment to conduct an annual physical inventory, no independent third-party
            (such as a representative of the Department's central property management office)
            is required to conduct or certify such inventories.

        •   Lastly, there are no property officials located at the regional and field offices who
            are responsible for the direction of overall property management at these
            locations. In fact, there is only one individual responsible for property
            management for the entire Department and this responsibility is a collateral duty.
            This arrangement increases the risk for loss of control of equipment.

                                           14
Equipment purchased with Program funding and license revenues are at risk of loss.
Additionally, the Department and FWS have no assurance that equipment is used for its
originally intended purposes.

Recommendations

We recommend that FWS ensure that the Department:

1. establish policies and procedures to ensure that items included in the Department’s
   Fixed Asset System can be identified by their physical location, and

2. revise its current inventory procedures to place responsibility on someone other than
   the individual assigned the equipment to conduct annual physical inventories in the
   field.

Department Response

The Department does not believe that improving its property system to keep track of the
physical location of property will provide substantial benefit because of the constant
movement of property among locations.

FWS Response

FWS Regional officials concurred with the recommendations and stated that they would
work with the Department in developing a corrective action plan to resolve the
recommendations.

OIG Comments

We believe for the Department to maintain accountability for its property, it needs an
inventory control system that can identify property by location(s).

While FWS regional management concurred with the recommendations, additional
information is needed in the corrective action plan, including:

   •   the specific action(s) taken or planned to address the recommendations;

   •   targeted completion dates;

   •   titles of officials responsible for implementing the actions taken or planned; and

   •   verification that FWS headquarters officials reviewed and approved of actions
       taken or planned by the Department.




                                      15
                                                                                                 Appendix 1
                           IDAHO DEPARTMENT OF FISH AND GAME
                         FINANCIAL SUMMARY OF REVIEW COVERAGE
                            JULY 1, 2005 THROUGH JUNE 30, 2007
                                                                  Questioned Costs (Federal Share)
                           Grant              Claimed                           Cost
    Grant Number          Amount                Costs           Unsupported Exceptions       Total
    F-71-R-30            $2,633,200          $2,531,099                         $7,500        $7,500
    F-71-R-31            $2,633,200          $2,466,287                         $2,336        $2,336
    F-73-R-28              $939,035            $965,194            $10,596                   $10,596
    F-73-R-29              $939,035            $946,057                         $1,606        $1,606
    F-75-R-21               $46,200             $52,915
    F-75-R-22               $46,200             $47,163
    F-76-D-22              $440,117            $390,759
    F-76-D-23              $500,117            $508,437
    F-77-B-21            $1,000,321          $1,085,560                 $750          $11,907           $12,657
    F-77-B-22            $1,000,321            $903,335                                  $759              $759
    F-81-D-16              $315,200            $357,716
    F-81-D-17              $315,200            $336,336
    F-87-AE-8              $616,407            $631,692             $45,214           $86,666         $131,880
    F-87-AE-9              $616,407            $623,111             $46,465           $92,093         $138,558
    F-88-C-6               $246,100            $230,097
    F-88-C-7               $246,100            $177,740                                   $317                $317
    FW-7-T-12              $879,242            $879,149
    FW-7-T-13              $886,246            $797,841
    W-159-HS-34            $549,624            $634,018
    W-159-HS-35            $510,369            $631,977                               $89,775           $89,775
    W-159-HS-36            $450,828            $900,761                                  $833              $833
    W-160-R-33             $935,261            $954,936               $9,975          $13,256           $23,231
    W-160-R-34             $915,464            $916,216
    W-168-C-23              $68,348             $79,022
    W-168-C-24              $67,189             $71,360
    W-170-R-30           $1,819,069          $1,747,439
    W-170-R-31           $1,776,596          $1,719,975                 $451                                  $451
    W-173-D-22           $2,122,101          $1,997,163
    W-173-D-23           $2,136,885          $2,139,269                                  $362              $362
    W-179-R-5              $189,103            $175,634                               $16,214           $16,214
    W-179-R-6              $226,985            $191,720
    W-180-E-1              $106,667            $106,667
    W-180-E-2              $106,667            $112,635
    Totals              $26,279,804         $26,309,280            $113,451          $323,624        $437,075 2

2
 $437,075 is different from the $437,073 presented in the body of the report in Finding A due to a rounding
difference.
                                                      16
                                            Appendix 2

IDAHO DEPARTMENT OF FISH AND GAME
           SITES VISITED

                Headquarters

                  Boise, ID

               Regional Offices

       Clearwater Region – Lewiston, ID
     Panhandle Region – Coeur d’Alene, ID
     Upper Snake Region – Idaho Falls, ID

                  Hatchery

            Henry’s Lake Hatchery

               Fisheries Office

            Nampa Fisheries Office

              Boat Access Sites

      Mud Lake WMA Boat Ramp (South)
     Rose Lake Sportsman Park Boat Access

               Fish Access Sites

            Spring Valley Reservoir

         Wildlife Management Areas

             Coeur d’Alene WMA
               Farragut WMA
              Market Lake WMA
              Sand Creek WMA




                    17
                                                                               APPENDIX 3


                                    IDAHO
                        DEPARTMENT OF FISH AND GAME
                STATUS OF AUDIT FINDINGS AND RECOMMENDATIONS

    Recommendations                        Status                      Action Required
A.1.1, A.1.2, A.1.3, A.1.4,   FWS management concurs          Additional information is
A.1.5, B, D, E.1, and E.2     with the recommendations, but   needed in the corrective action
                              additional information is       plan, including the actions taken
                              needed as outlined in the       or planned to implement the
                              “Actions Required” column.      recommendations, targeted
                                                              completion date(s), the title of
A.2.1, A.2.2, C.1 and C.2     FWS acknowledges the            official(s) responsible for
                              recommendations, but            implementation, and verification
                              additional information is       that FWS officials reviewed and
                              needed as outlined in the       approved of actions taken or
                              “Actions Required” column.      planned by the State. We will
                                                              refer recommendations not
                                                              resolved and/or implemented at
                                                              the end of 90 days (after April
                                                              27, 2009) to the Assistant
                                                              Secretary for Policy,
                                                              Management and Budget for
                                                              resolution and/or tracking of
                                                              implementation.




                                            18
  Report Fraud, Waste, Abuse ,
     and Mismanagement
          Fraud, waste, and abuse in government
          concerns everyone:Office of Inspector
          General staff, Departmental employees,
            and the general public. We actively
          solicit allegations of any inefficient and
            wasteful practices, fraud, and abuse
          related to Departmental or Insular Area
         programs and operations. You can report
             allegations to us in several ways.




By Mail:          U.S. Department of the Interior
                  Office of Inspector General
                  Mail Stop 4428 MIB
                  1849 C Street, NW
                  Washington, D.C. 20240

By Phone          24-Hour Toll Free            800-424-5081
                  Washington Metro Area        703-487-5435

By Fax            703-487-5402

By Internet       www.doioig.gov/hotline
